        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Evaluation Report
The Department's Unclassified
Cyber Security Program - 2009




DOE/IG-0828                      October 2009
                             Department of Energy
                                Washington, DC 20585
                                    October 16, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                INFORMATION: Evaluation Report on "The Department's
                        Unclassified Cyber Security Program"



BACKGROUND

Industry experts report that security challenges and threats are continually evolving as
malicious activity has become more web-based and attackers are able to rapidly adapt
their attack methods. In addition, the number of data breaches continues to rise. In an
effort to mitigate and address threats and protect valuable information, the Department of
Energy anticipated spending about $275 million in Fiscal Year (FY) 2009 to implement
cyber security measures necessary to protect its information technology resources. These
systems and data are designed to support the Department's mission and business lines of
energy security, nuclear security, scientific discovery and innovation, and environmental
responsibility.

The Federal Information Security Management Act of 2002 (FISMA) provides direction
to agencies on the management and oversight of information security risks, including
design and implementation of controls to protect Federal information and systems. As
required by FISMA, the Office of Inspector General conducts an annual independent
evaluation to determine whether the Department's unclassified cyber security program
adequately protects its information systems and data. This memorandum and the
attached report present the results of our evaluation for FY 2009.

RESULTS OF EVALUATION

The Department continued to make incremental improvements in its unclassified cyber
security program. Our evaluation disclosed that most sites had taken action to address
weaknesses previously indentified in our FY 2008 evaluation report. They improved
certification and accreditation of systems; strengthened configuration management of
networks and systems; performed independent assessments; and, developed and/or
refined certain policies and procedures. In addition, the Department instituted a
centralized incident response organization designed to eliminate duplicative efforts
throughout the Department. As we have noted in previous reports, the Department
continued to maintain strong network perimeter defenses against malicious intruders and
other externals threats.
                                             2

These are positive accomplishments. However, in our judgment, additional action is
required to further enhance the Department's unclassified cyber security program and
help reduce risks to its systems and data. For example, our current review identified
opportunities for improvements in areas such as security planning and testing, systems
inventory, access controls, and configuration management. In particular, we issued a
number of findings at sites managed by the National Nuclear Security Administration
(NNSA). We also identified weaknesses across various Department program elements.
Issues that warrant further attention include:


   •   Weaknesses such as outdated security plans and not completing annual security
       control self-assessments were identified at several sites;

   •   The Department had not yet resolved systems inventory issues and had yet to
       deploy a complex-wide automated asset management tool to help track
       information technology resources and identify interfaces between systems or
       networks;

   •   Although certain improvements had been made to enhance access controls, we
       noted deficiencies such as a lack of periodic account reviews and inadequate
       password management at a number of sites; and,

   •   Previously identified weaknesses in configuration management had been
       corrected, however, we found problems related to weak administrator account
       settings and failure to install software patches, as well as incomplete
       implementation of the Federal Desktop Core Configuration.

These internal control weaknesses existed, at least in part, because certain cyber security
roles and responsibilities were not clearly delineated. Program officials also had not
effectively performed monitoring and review activities essential for evaluating the
adequacy of cyber security performance. In some cases, officials had not ensured that
weaknesses discovered during audits and other evaluations were recorded and tracked to
resolution in the organizations' Plans of Action and Milestones. Our testing disclosed
that about 39 percent of existing corrective action milestones had missed estimated
remediation dates, with many exceeding planned completion dates by at least one year.
As a consequence, the risk of compromise to the Department's information and systems
remained higher than necessary.


To assist the continuing efforts to improve, we made several recommendations designed
to help the Department's managers to strengthen the unclassified cyber security program
and, thereby, protect its computer resources from unauthorized modification, loss, or
disclosure of information.


Due to security considerations, information on specific vulnerabilities and locations has
been omitted from this report. Management officials at the sites evaluated were provided
                                             3

with detailed information regarding identified vulnerabilities, and, in many instances,
initiated corrective actions.



MANAGEMENT REACTION

Management concurred with the report's recommendations and disclosed that it had
initiated or already completed actions to address weaknesses identified in our report. In
separate comments, the NNSA neither concurred nor disagreed with our specific
recommendations. However, the NNSA disclosed that it generally agreed with the report
content. Management's comments are included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Science
    Under Secretary of Energy
    Director, Office of Health, Safety and Security
    Chief of Staff
    Chief Information Officer
EVALUATION REPORT ON THE DEPARTMENT'S UNLCASSIFIED
CYBER SECURITY PROGRAM - 2009


TABLE OF
CONTENTS

Unclassified Cyber Security Program

Details of Finding ................................................................................................................1

Recommendations and Comments.......................................................................................8


Appendices

1. Objective, Scope, and Methodology............................................................................10

2. Prior Reports ................................................................................................................12

3. Management Comments ..............................................................................................17
Unclassified Cyber Security Program

Program               The Department of Energy (Department or DOE) continued
Improvements          to make incremental progress over the past year in addressing
                      previously identified cyber security weaknesses and enhancing
                      its unclassified cyber security program. For instance, we noted
                      that actions had been taken to correct seven of nine findings
                      identified during our evaluation of The Department's
                      Unclassified Cyber Security Program – 2008 (DOE/IG-0801,
                      September 2008). In particular, the Office of Science
                      (Science) and Under Secretary of Energy program elements
                      took action to close all of their findings previously identified
                      by the Office of Inspector General (OIG). In addition, the
                      National Nuclear Security Administration (NNSA) closed four
                      of six findings from last year. Specific actions taken included:

                         •   Improvements in the area of certification and
                             accreditation activities at various sites, including
                             updating security plans to account for current controls
                             and correcting deficiencies identified through control
                             testing;

                         •   Deployment of independent certification agents at sites
                             to perform and validate security control testing results;

                         •   Six sites had updated certain security policies and
                             procedures related to self-assessments, independent
                             assessments, and access controls to correct deficiencies
                             identified during last year's evaluation;

                         •   Correcting configuration management vulnerabilities
                             such as implementing a new process for updating
                             network services and performing regular vulnerability
                             scans; and,

                         •   Instituting a centralized incident response organization
                             that eliminated duplicative efforts throughout the
                             Department.

Managing Cyber        As noted above, the Department continued to improve the
Related Risks         management of its cyber security program. For example,
                      similar to last year, our evaluation disclosed that the number of
                      overall findings issued to the Department related to risk
                      management had significantly decreased from prior years. In
                      particular, we did not identify any significant issues related to
                      contingency planning or system categorization during our
                      current evaluation. We did, however, determine that additional
                      improvements are possible and should help to further reduce

________________________________________________________________
Page 1                                            Details of Finding
                      the risk of compromise to the agency's information systems and
                      data. In particular, we identified weaknesses in the areas of
                      security planning and testing and maintaining a complete
                      systems inventory. These processes are essential for ensuring a
                      complete and effective risk management strategy for protecting
                      information technology (IT) systems and data.

                                       Security Planning and Testing

                      Security planning and testing are critical activities that support
                      a risk management process and are an integral part of an
                      agency's information security program. However, as identified
                      in our reports on Cyber Security Risk Management Practices at
                      the Southeastern, Southwestern, and Western Area Power
                      Administrations (DOE/IG-0805, November 2008), and Cyber
                      Security Risk Management Practices at the Bonneville Power
                      Administration (DOE/IG-0807, December 2008), the Power
                      Marketing Administrations (PMAs) had allowed many security
                      plans to expire or had not developed security plans for all
                      applicable systems. While these same weaknesses were
                      reported in our prior Federal Information Security Management
                      Act (FISMA) evaluation, we noted that a number of the
                      deficiencies had yet to be corrected. A comprehensive system
                      security plan is essential for agency officials to determine that
                      all system risks have been fully considered and necessary
                      mitigating controls are in place.

                      Additionally, certain PMAs had not always completed annual
                      self-assessments of security controls. For example, one PMA
                      did not perform physical testing of controls but rather relied
                      upon discussion of the controls to determine whether they were
                      properly implemented and operating as intended. In another
                      instance, a PMA mistakenly relied on the Department's Office
                      of Health, Safety and Security (HSS) to satisfy the certification
                      requirements for all systems even though HSS did not test all
                      applicable National Institute of Standards and Technology
                      (NIST) controls and its inspections were not meant to be a
                      substitute for certification testing.

                                             Systems Inventory

                      Although identified as a problem for the past several years, the
                      Department had not yet resolved systems inventory related
                      weaknesses. Specifically, the Department's current systems
                      inventory process consists of an annual data call to sites and
                      organizations. During this process, the Department relies
                      completely on programs and contractors to self-report their
________________________________________________________________
Page 2                                            Details of Finding
                      inventory. However, the Office of the Chief Information
                      Officer (OCIO) conducts only limited verification to check the
                      consistency of information reported quarterly. An accurate and
                      complete inventory of the Department's information resources
                      is needed to plan for and institute appropriate protective
                      measures for its systems, especially those that contain sensitive
                      and personally identifiable information (PII).

                      In addition, as we reported last year, the Department had not
                      deployed a complex-wide automated asset management tool to
                      help track systems and identify interfaces between systems or
                      networks. The online tool chosen as a solution by the
                      Department, initiated in 2007, was to provide the capability to
                      capture systems inventory information, but delays continue to
                      push back full implementation. An OCIO official anticipated
                      sites and programs would be required to use the new system by
                      the third quarter of Fiscal Year (FY) 2010. Although not a
                      Federal requirement, an automated asset management tool –
                      when fully implemented – could assist the Department in not
                      only FISMA reporting but also in areas such as risk
                      management, capital planning, and configuration management.

Security Controls     While many of the security control deficiencies reported
                      during our previous evaluation had been corrected, we issued
                      six findings during our current review related to access controls
                      and/or configuration management. These controls help prevent
                      unauthorized access and modification to information systems
                      and data from both internal and external sources. Based on our
                      testing, we found that weaknesses in these areas existed at a
                      number of sites. In a number of instances, site officials took
                      action to correct weaknesses soon after we brought them to
                      their attention. However, as described below, various
                      weaknesses remain.

                                              Access Controls

                      The Department continued to experience access control
                      weaknesses for its information systems. Access controls
                      consist of both physical and logical measures designed to
                      protect information resources from unauthorized modification,
                      loss, or disclosure. To ensure that only authorized individuals
                      can gain access to networks or systems, controls of this type
                      need to be strong and functional. Although one site closed an
                      access control finding identified during last year's review, we
                      noted that control weaknesses continued to exist at multiple
                      sites, including:

________________________________________________________________
Page 3                                            Details of Finding
                         •   Eight sites had default or weak account credentials such
                             as usernames and passwords. In addition, passwords
                             were not always changed or locked out according to
                             Department policy. While deficiencies at six of these
                             sites were corrected immediately after we pointed them
                             out, the failure to fully implement corrective actions at
                             the two remaining sites increased the risk of exposure
                             of sensitive information to users with malicious intent.
                             For example, the default vendor-supplied administrator
                             user identification and password were not disabled or
                             changed after the installation of a test system at one
                             site. This weakness could have permitted an
                             unauthorized user to access multiple systems by using
                             the system administrator's user identification and
                             password;

                         •   Two sites had not conducted timely periodic
                             management reviews of user accounts and related
                             access privileges. For instance, one site had not
                             conducted such a review in more than a year, limiting
                             its ability to effectively monitor changes in access
                             privileges. In another case, access levels at one site
                             were not periodically reconciled with documented
                             requirements. Management review of user accounts
                             and related access privileges is essential to determining
                             whether users who no longer have a valid need for
                             information resources because of job changes or
                             resignations had their access removed in a timely
                             manner; and,

                         •   As disclosed in our report on Protection of the
                             Department of Energy's Unclassified Sensitive
                             Electronic Information (DOE/IG-0818, August 2009),
                             access controls over laptop computers taken on foreign
                             travel from one site were not adequate. Specifically,
                             logical security assessments to identify potential
                             infections from malware were not conducted prior to
                             accessing the site's network after returning from travel.
                             As a result, the site's network was subjected to potential
                             exploitation if the laptop had been compromised while
                             on foreign travel.




________________________________________________________________
Page 4                                            Details of Finding
                                          Configuration Management

                             Although actions were taken to mitigate configuration
                             management findings identified during our FY 2008
                             review, we identified additional weaknesses at a
                             number of Department sites this year. These
                             weaknesses included software vulnerabilities and
                             deficiencies in implementing common security
                             configurations. Configuration management controls are
                             an integral component of a strong security policy and
                             help to ensure that computer applications and systems
                             are consistently configured with minimum security
                             standards to prevent and protect against unauthorized
                             modifications. However, our review disclosed that:

                                •   Nine sites were using outdated network services
                                    or were missing security patches, including one
                                    site where software vulnerabilities identified by
                                    the manufacturer in 2007 were not patched even
                                    though fixes were available to correct the
                                    weakness. This vulnerability could have
                                    allowed unauthorized access to system
                                    administrator functions on any of the systems
                                    running the software;

                                •   At one site, a server containing human resources
                                    data, including PII, was connected to the
                                    network with a configuration that permitted any
                                    user on the network to access the data through
                                    an anonymous connection. During our
                                    testwork, we were able to exploit this
                                    vulnerability to obtain privacy data; and,

                                •   Six sites used software configurations that were
                                    not secure, a practice that could result in the
                                    compromise of system administrator account
                                    credentials and ultimately allow unauthorized
                                    access to other internal systems.

                      In addition, numerous sites had not implemented the Federal
                      Desktop Core Configuration (FDCC) mandated by the Office
                      of Management and Budget. While the FDCC was designed
                      to, among other things, make information systems more secure,
                      we identified that seven Science field sites reviewed had
                      implemented security configurations that were less


________________________________________________________________
Page 5                                            Details of Finding
                      stringent than those included in the FDCC. Furthermore, our
                      current evaluation noted that although most Under Secretary of
                      Energy and NNSA sites reviewed had implemented FDCC,
                      certain sites were still working to meet the requirements. We
                      recognize that the FDCC may not be appropriate in certain
                      scientific or research environments and accounted for these
                      circumstances in our review.

Cyber Security        The problems identified occurred, at least in part, because
Management Program    certain cyber security roles and responsibilities had not been
                      clearly delineated. In addition, programs and sites had not
                      effectively conducted performance monitoring of cyber
                      security performance and ensured that Plans of Action &
                      Milestones (POA&M) were used effectively.

                                               Coordination

                      The OCIO and NNSA had made extensive efforts to coordinate
                      the transition of a number of sites to the Department of
                      Energy's Common Operating Environment (DOE-COE), an
                      initiative launched by the Department to consolidate all aspects
                      of common IT systems that had previously been managed
                      separately by various organizations. However, we noted that
                      certain roles and responsibilities related to the transition were
                      not clearly delineated and contributed to three of the eight
                      weaknesses identified during our review. For example,
                      responsibility for certain areas were unclear and, therefore,
                      some required functions were not completed while the
                      performance of other less pressing functions were omitted
                      altogether. In response to the weaknesses we identified,
                      officials stated they were developing corrective action plans
                      and expected to remedy the specific weaknesses by the end of
                      the Fiscal Year.

                                         Performance Monitoring

                      As noted in previous evaluations, Department management had
                      not effectively performed monitoring and review activities
                      essential for evaluating the adequacy of cyber security
                      performance and had not ensured that POA&Ms were always
                      used effectively. For example, certain program-level cyber
                      security representatives stated that a lack of resources
                      prevented them from performing effective oversight within
                      their respective programs. As such, they relied on reviews
                      conducted by the OIG, Government Accountability Office, and
                      HSS to help with monitoring activities and address related

________________________________________________________________
Page 6                                            Details of Finding
                      cyber security weaknesses. While these independent
                      organizations may make recommendations for improving
                      controls, the reviews they perform are not a substitute for an
                      effective internal control and management review structure.
                      Rather, management is responsible for providing adequate
                      oversight.

                      Furthermore, despite concurring with previous OIG
                      recommendations, NNSA had not fully implemented an
                      adequate periodic evaluation mechanism to ensure the
                      effectiveness of field sites in carrying out their responsibilities
                      for proper implementation of Federal cyber security
                      requirements. NNSA informed us during the course of our
                      evaluation that it had developed an aggressive assessment
                      schedule for FY 2010 that, if adhered to, should further
                      enhance its performance monitoring program.

                      As with past reviews, we identified problems regarding the use
                      of POA&Ms as a management tool for tracking and correcting
                      all known cyber security weaknesses. In particular:

                          •   Although the Department was working to implement
                              corrective actions, five of nine cyber security
                              weaknesses identified during our FY 2008 evaluation
                              were not included in the Department's POA&M;

                          •   Our evaluation identified that POA&Ms did not contain
                              all cyber security weaknesses identified by oversight
                              organizations, including numerous security related OIG
                              reports; and,

                          •   We identified that about seven percent of open
                              milestones captured in the POA&Ms were at least one
                              year beyond their projected remediation date, including
                              one that was more than four years beyond its target
                              date.

                      As noted in NIST guidance, POA&Ms are important for
                      managing an entity's progress towards eliminating gaps
                      between required security controls and those that are actually
                      in place.

Resources and Data    During FY 2009, the Department took a number of steps
Remain at Risk        designed to improve its cyber security program. However,
                      weaknesses continue to exist in key areas. As demonstrated by
                      recent HSS penetration testing, Departmental systems and

________________________________________________________________
Page 7                                            Details of Finding
                     information remain vulnerable to attack and exploitation.
                     Specifically, HSS was able to gain access to large network
                     segments at two national laboratories managed by Science and
                     exfiltrated significant quantities of sensitive information,
                     including PII. Notably, at least two other sites detected the
                     attack and prevented HSS from gaining network access.

                     The importance and need for sustained action is well
                     demonstrated by industry experts who report that the number
                     of new malicious code threats increased over 1,000 percent
                     from 2006 to 2008. The Department also reported a 39 percent
                     increase in the number of total incidents between FYs 2008 and
                     2009. While this increase may represent enhanced reporting, it
                     also demonstrates the need to continuously improve detection
                     capabilities and cyber security awareness. In addition, the
                     Department reported that the number of attempted intrusions of
                     its networks had increased rapidly between 2006 and 2008. As
                     such, sites must remain vigilant if they are to maintain their
                     ability to thwart potential attacks from internal and external
                     threats.

RECOMMENDATIONS      To correct the weaknesses identified in this report and improve
                     the effectiveness of the Department's cyber security program,
                     we recommend that the Department and the NNSA Chief
                     Information Officers, in coordination with the cognizant
                     program elements, as appropriate:

                        1. Correct, through the implementation of management,
                           operational, and technical controls, each of the specific
                           vulnerabilities identified in this report;

                        2. Ensure effective coordination of efforts and
                           responsibilities between the OCIO and programs during
                           DOE-COE implementation at field sites;

                        3. Perform compliance monitoring activities to ensure the
                           adequacy of cyber security program performance; and,

                        4. Ensure that POA&Ms are complete and are utilized as a
                           management tool for prioritizing corrective actions and
                           tracking all known cyber security weaknesses to
                           completion.




________________________________________________________________
Page 8                              Recommendations and Comments
MANAGEMENT           Management concurred with each of the report's
REACTION             recommendations and provided technical comments on the
                     content of the report. Management added that it had initiated
                     or completed corrective actions designed to address
                     weaknesses identified during our review. Management noted
                     that it continues to focus attention on coordination efforts
                     related to DOE-COE implementation. In addition,
                     management disclosed that it continues to work towards
                     automating the complex-wide FISMA reporting process.

                     In separate comments, the NNSA did not specifically indicate
                     whether it agreed with our recommendations. However,
                     NNSA disclosed that it generally agreed with the report
                     content, but requested more specificity in certain areas. In
                     addition, NNSA commented that it did not agree with the
                     report finding that it had not fully implemented an adequate
                     periodic evaluation mechanism. NNSA added that it was
                     working to procure and deploy an asset management tool as
                     part of its overall continuous monitoring program.

AUDITORS             Management's comments were responsive to our
COMMENTS             recommendations. However, because the NNSA did not
                     indicate whether it agreed with our recommendations, we
                     consider NNSA's comments to be non-responsive. Regarding
                     NNSA's comment that greater specificity is needed in the
                     report, NNSA Headquarters and Site Office officials were
                     provided with a copy of each of the findings related to its
                     program during our review. NNSA concurred with all but one
                     of the findings, which has since been closed and is not
                     discussed in this report. In addition, NNSA provided
                     corrective action plans in response to each of the findings.
                     Although NNSA's comments disclosed that it did not agree
                     with the report finding related to implementation of an
                     adequate periodic evaluation mechanism, NNSA specifically
                     concurred with our finding and recommendation related to this
                     area at the time of our review. Management's and NNSA's
                     comments are included in their entirety in Appendix 3.




________________________________________________________________
Page 9                              Recommendations and Comments
Appendix 1

OBJECTIVE                 To determine whether the Department of Energy's (DOE or
                          Department) unclassified cyber security program adequately
                          protected data and information systems.

SCOPE                     The evaluation was performed between February 2009 and
                          September 2009 at numerous locations. Specifically, we
                          performed an assessment of the Department's unclassified
                          cyber security program. The evaluation included a limited
                          review of general and application controls in areas such as
                          entity-wide security planning and management, access
                          controls, application software development and change
                          controls, and service continuity. Our work did not include a
                          determination of whether vulnerabilities found were actually
                          exploited and used to circumvent existing controls. The
                          Health, Safety and Security Office of Independent Oversight
                          performed a separate evaluation of the Department's
                          information security program for National Security Systems.

METHODOLOGY               To accomplish the audit objective, we:

                              •   Reviewed applicable laws and directives pertaining to
                                  cyber security and information technology resources
                                  such as the Federal Information Security Management
                                  Act of 2002, Office of Management and Budget
                                  Circular A-130 (Appendix III), and DOE Order 205.1A,
                                  Department of Energy Cyber Security Management;

                              •   Reviewed applicable standards and guidance issued by
                                  the National Institute of Standards and Technology;

                              •   Reviewed the Department's overall cyber security
                                  program management, policies, procedures, and
                                  practices throughout the organization;

                              •   Assessed controls over network operations and systems
                                  to determine the effectiveness related to safeguarding
                                  information resources from unauthorized internal and
                                  external sources;

                              •
                           Evaluated selected Headquarters' offices and field sites
                           in conjunction with the annual audit of the
                           Department's Consolidated Financial Statements,
                           utilizing work performed by KPMG LLP (KPMG), the
                           Office of Inspector General (OIG) contract auditor.
                           KPMG work included analysis and testing of general
                           and application controls for systems as well as
                           vulnerability and penetration testing of networks; and,
________________________________________________________________
Page 10                                Objective, Scope and Methodology
Appendix 1 (continued)

                         •   Reviewed and incorporated the results of other cyber
                             security review work performed by the OIG, the
                             Department's Office of Independent Oversight, and the
                             Government Accountability Office.

                      The evaluation was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits. Those standards require that we plan and perform the
                      effort to obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our finding and conclusions based on our
                      objective. We believe that the evidence obtained provides a
                      reasonable basis for our finding and conclusions based on our
                      objective. Accordingly, we assessed significant internal
                      controls and the Department's implementation of the
                      Government Performance and Results Act of 1993 and
                      determined that it had established performance measures for
                      unclassified cyber security. Because our evaluation was
                      limited, it would not have necessarily disclosed all internal
                      control deficiencies that may have existed at the time of our
                      evaluation. We did not rely solely on computer-processed data
                      to satisfy the objective of the evaluation. However, computer-
                      assisted audit tools were used to perform probes of various
                      networks and drives. We validated the results of the scans by
                      confirming the weaknesses disclosed with responsible on-site
                      personnel and performed other procedures to satisfy ourselves
                      as to the reliability and competence of the data produced by the
                      tests. In addition, we confirmed the validity of other data,
                      when appropriate, by reviewing supporting source documents.

                      The Department waived an exit conference.




________________________________________________________________
Page 11                             Objective, Scope and Methodology
Appendix 2

                                   PRIOR REPORTS

Office of Inspector General Reports

   •   Protection of the Department of Energy's Unclassified Sensitive Electronic
       Information (DOE-IG-0818, August 2009). Opportunities exist to strengthen the
       protection of all types of sensitive unclassified electronic information. For
       example, sites: had not ensured that sensitive information maintained on mobile
       devices was encrypted or they had improperly permitted sensitive unclassified
       information to be transmitted unencrypted through email or to offsite backup
       storage facilities; had not ensured that laptops taken on foreign travel were
       protected against security treats; and, were still working to complete required
       Privacy Impact Assessments.

   •   Management Challenges at the Department of Energy (DOE/IG-0808, December
       2008). The Office of Inspector General (OIG) identified six significant
       management challenges facing the Department of Energy (Department), including
       cyber security. Although the Department had made improvements in its
       unclassified cyber security program, the OIG continued to identify deficiencies
       relevant to certification and accreditation (C&A) of systems, contingency
       planning, systems inventory, and segregation of duties.

   •   Cyber Security Risk Management Practices at the Bonneville Power
       Administration (DOE/IG-0807, December 2008). Bonneville had not always
       appropriately identified and addressed potential risks to critical systems and data,
       to include systems controlling electricity transmission; developed adequate
       security plans for each of the four systems reviewed; ensured that physical and
       cyber security controls were tested and operating as intended; and, developed
       corrective action plans necessary to resolve weaknesses in a number of important
       control areas.

   •   Cyber Security Risk Management Practices at the Southeastern, Southwestern,
       and Western Area Power Administrations (DOE/IG-0805, November 2008).
       These Power Marketing Administrations had not always developed adequate
       security plans for each of the 12 systems reviewed; ensured that physical and
       cyber security controls were tested and operating as intended; developed
       corrective action plans necessary to resolve weaknesses in a number of important
       control areas; and, developed contingency plans to ensure that systems could be
       recovered in the event of a significant outage.

   •   The Department's Unclassified Cyber Security Program - 2008 (DOE/IG-0801,
       September 2008). The review identified opportunities for improvements in areas
       such as C&A of systems; systems inventory; contingency planning; and,
       segregation of duties. Similar to past observations, these internal control
       weaknesses existed, at least in part, because not all Department program
       organizations, including the National Nuclear Security Administration (NNSA),
       had revised and implemented policies incorporating Federal and Departmental
       cyber security requirements in a timely manner. Program officials had also not
________________________________________________________________
Page 12                                              Prior Reports
Appendix 2 (continued)

      effectively performed management review activities essential for evaluating the
      adequacy of cyber security performance. In some cases, officials had not ensured that
      weaknesses discovered during audits and other examinations were recorded and
      tracked to resolution. Risk of compromise to the Department's information and
      systems remained higher than necessary.

  •   The Department's Unclassified Foreign Visits and Assignments Program (DOE/IG-
      0791, March 2008). Not all NNSA computers assigned to foreign nationals and
      assignees were properly installed with security features that would prevent one from
      circumventing security measures such as modifying log-on settings, loading
      unauthorized software, removing software, and changing computer settings. Some
      foreign visitors and assignees had unsupervised use of their foreign government,
      university, or business laptops within laboratory facilities which had live Intranet
      connections.

  •   Management of the Department's Publicly Accessible Websites (DOE/IG-0789,
      March 2008). Some of the Department's publicly accessible websites did not meet
      Federal accessibility requirements or contingency planning. Content on publicly
      accessible web servers was not always controlled and reviewed periodically. This
      resulted in eight instances that involved personally identifiable information (PII)
      being exposed to unauthorized or malicious sources. The majority of the
      organizations failed to implement contingency/emergency planning, provide
      accessibility to those with disabilities, and limit/disable unneeded computer services
      due to the lack of guidance from Headquarters and deficiencies in site-level
      management and control.

  •   The Department's Cyber Security Incident Management Program (DOE/IG-0787,
      January 2008). Program elements and facility contractors established and operated as
      many as eight independent cyber security intrusion and analysis organizations whose
      missions and functions were partially duplicative and not well coordinated. Sites
      could also choose whether to participate in network monitoring activities performed
      by the organizations. Furthermore, the Department had not adequately addressed
      related issues through policy changes, despite identifying and acknowledging
      weaknesses in its cyber security incident management and response program.

  •   Incident of Security Concern at the Y-12 National Security Complex (DOE/IG-0785,
      January 2008). An unclassified laptop computer was brought into Y-12's limited area
      without proper authorization, not detained by cyber security personnel, and the
      written incident report was not completed within 32 hour reporting requirement. An
      additional 37 laptop computers may have been improperly introduced into the
      Limited Area by Oak Ridge National Laboratory personnel in recent years with these
      incidents not properly reported in a timely manner.

  •   The Department's Unclassified Cyber Security Program - 2007 (DOE/IG-0776,
      September 2007). Problems persisted with the C&A of the Department's systems
      related to assessing risks and ensuring the adequacy of security controls. The
      Department had not established a complex-wide inventory systems and a number of

___________________________________________________________________
Page 13                                                  Prior Reports
Appendix 2 (continued)

      organizations still had not ensured their contingency plans are in working order.
      Additional deficiencies were identified that reduce the Department's ability to protect
      its computer resources from unauthorized actions, so the Department could not
      always ensure the personal information on agency systems was adequately protected.
      Risk of compromise to the Department's information and systems remains higher than
      acceptable.

  •   Security Over Personally Identifiable Information (DOE/IG-0771, July 2007). The
      Department had not identified all site-level systems containing PII or evaluated the
      risks associated with maintaining such systems; remote access protection measures
      had not been fully deployed in accordance with Departmental direction; and, some
      sites had not identified mobile computing devices containing PII nor ensured that
      such information was encrypted.

  •   The Department's Efforts to Implement Common Information Technology Services at
      Headquarters (DOE/IG-0763, March 2007). Five major organizations, 40 percent of
      the total potential user population, were not migrated to the Department's Common
      Operating Environment within the first year as planned, thereby preventing
      realization of the full $15 million of first year savings. For certain organizations in
      which implementation was completed, services were not disabled for terminated
      employees in a timely manner, resulting in the payment of over $700,000 in
      unnecessary user fees and creating potential cyber security vulnerabilities.

  •   Excessing of Computers Used for Unclassified Controlled Information at Lawrence
      Livermore National Laboratory (DOE/IG-0759, March 2007). NNSA delayed
      having Lawrence Livermore National Laboratory (LLNL) implement Departmental
      policy on clearing, sanitizing, and destroying memory devices for almost two and a
      half years after the policy was issued while its Office of the Chief Information Officer
      (OCIO) drafted a policy letter to provide NNSA sites with specific requirements.
      This delay caused LLNL to not establish certain site-wide procedures and internal
      controls necessary to ensure the proper clearing, sanitizing, and destroying of
      unclassified controlled information on electronic memory devices.

  •   The National Nuclear Security Administration's Implementation of the Federal
      Information Security Management Act (DOE/IG-0758, February 2007). NNSA did
      not always properly implement its own guidance as well as Departmental and Federal
      cyber security requirements and had not performed regular monitoring activities
      essential to evaluating the adequacy of cyber security program performance.
      Therefore, NNSA's unclassified information systems and networks and the data they
      contain remain at risk of being compromised, including the possible unlawful
      diversion of operational data, PII, or other critical information.

  •   Certification and Accreditation of Unclassified Information Systems (DOE/IG-0752,
      January 2007). Many of the Department's systems were not properly certified and
      accredited prior to becoming operational. For example, 9 of 14 sites reviewed did not
      properly access security risks to their systems and did not adequately test and
      evaluate security controls. In many instances, senior agency officials accredited

___________________________________________________________________
Page 14                                                  Prior Reports
Appendix 2 (continued)

       systems although required documentation was inadequate or incomplete, such as
       incomplete inventories of software and hardware included within defined
       accreditation boundaries. The OCIO and program elements did not adequately
       review completed activities for quality or compliance with requirements.

Government Accountability Office Reports

   •   Information Security: Agencies Continue to Report Progress, but Need to Mitigate
       Persistent Weaknesses (GAO-09-546, July 2009)

   •   Federal Information Security Issues (GAO-09-817R, June 30, 2009)

   •   Cybersecurity: Continued Federal Efforts are Needed to Protect Critical Systems
       and Information (GAO-09-835T, June 25, 2009)

   •   Information Security: Agencies Make Progress in Implementation of Requirements,
       but Significant Weaknesses Persist (GAO-09-701T, May 19, 2009)

   •   Information Security: Cyber Threats and Vulnerabilities Place Federal Systems at
       Risk (GAO-09-661T, May 5, 2009)

   •   National Cybersecurity Strategy: Key Improvements Are Needed to Strengthen the
       Nation's Posture (GAO-09-432T, March 10, 2009)

   •   Nuclear Security: Los Alamos National Laboratory Faces Challenges In Sustaining
       Physical and Cyber Security Improvements (GAO-08-1180T, September 25, 2008)

   •   Information Security: Actions Needed to Better Protect Los Alamos National
       Laboratory's Unclassified Computer Network (GAO-08-1001, September 2008)

   •   Los Alamos National Laboratory: Long-Term Strategies Needed to Improve Security
       and Management Oversight (GAO-08-694, June 2008)

   •   Information Security: Progress Reported, but Weaknesses at Federal Agencies
       Persist (GAO-08-571T, March 12, 2008)

   •   Information Security: Although Progress Reported, Federal Agencies Need to
       Resolve Significant Deficiencies (GAO-08-496T, February 14, 2008)

   •   Information Security: Protecting Personally Identifiable Information (GAO-08-343,
       January 2008)

   •   National Nuclear Security Administration: Security and Management Improvements
       Can Enhance Implementation of the NNSA Act (GAO-07-428T, January 31, 2007)

   •   National Nuclear Security Administration: Additional Actions Needed to Improve
       Management of the Nation's Nuclear Programs (GAO-07-36, January 2007)



___________________________________________________________________
Page 15                                                  Prior Reports
Appendix 2 (continued)

Office of Health, Safety and Security Reports

   •   Independent Oversight Inspection of the Unclassified Cyber Security Program at the
       National Training Center, June 2009

   •   Independent Oversight Inspection of the Office of Environmental Management
       Classified and Unclassified Cyber Security Programs at the Savannah River Site,
       March 2009

   •   Independent Oversight Unclassified Cyber Security Inspection of the Idaho
       Operations Office, the Idaho National Laboratory, and the Idaho Cleanup Project,
       March 2009

   •   Independent Oversight Unclassified Cyber Security Inspection of the Southeastern
       Power Administration, February 2009

   •   Independent Oversight Unclassified Cyber Security Inspection of the Princeton
       Plasma Physics Laboratory, November 2008

   •   Independent Oversight Classified and Unclassified Cyber Security Inspection of the
       Livermore Site Office and the Lawrence Livermore National Laboratory, June 2008.

   •   Independent Oversight Red Team Activity Report, 2007 Facility Representative
       Workshop, March 2008.




___________________________________________________________________
Page 16                                                  Prior Reports
Appendix 3




___________________________________________________________________
Page 17                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 18                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 19                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 20                                         Management Comments
                                                             IG Report No. DOE/IG-0828

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
